OFFICE OF THE ATTORNEY GENERAL
Criminal Appeals Division, Tallahassee

 

TRISHA MEGGS PATE
Bureau Chief, Criminal Appeals

ASHLEY B. MOODY The Capitol
ATTORNEY GENERAL Tallahassee, Florida 32399-1050
STATE OF FLORIDA Telephone (850) 414-3300

Fax (850) 922-6674

October 1, 2020

The Honorable Scott S. Harris, Clerk
United States Supreme Court

One First Street, N.E.

Washington, D.C. 20543

Re: Keith O. Johnson v. Florida
Case No. 20-5505

Dear Mr. Harris:

The State of Florida recently received a copy of the Petitioner’s Petition for
Writ of Certiorari. Please be advised that the State of Florida will continue to
follow its long held position on these matters and will respectfully decline to
answer petitions filed in non-capital cases unless the Court requests a response. If
the Court requests a response, the State of Florida will provide one.

Respectfully submitte;

 
  
 

TRISHA
Bureau Chief
Tallahassee Criminal Appeals
Fla. Bar No. 0045489

(850) 414-3300

ATE

cc: Keith Johnson #583744
Liberty Correctional Institution
11064 N.W. Dempsey Barron Road
Bristol, FL 32321
